Date       : July 19, 2013
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Audit Memorandum No. 13-10: NARA Archival Facilities

To         : David S. Ferriero, Archivist of the United States

The National Archives and Records Administration (NARA) Office of Inspector General
completed an audit of NARA’s Preservation Program. The objectives of the audit were to
determine if (1) recommendations in the Evaluation of NARA’s Preservation Program (OIG
Audit Report No. 05-13, dated June 2005) were adequately implemented; and (2) program
controls were adequate in order to meet the mission of preserving Federal records. On
July 9, 2013, the OIG issued Audit of NARA’s Preservation Program (OIG Report No. 13-08).
The report outlined deficiencies (including the issue discussed in this report) that significantly
affect NARA’s ability to fulfill its mission of safeguarding and preserving essential and
important records of our Federal Government. This audit memorandum focuses on the results
related to NARA’s archival facilities. Originally this issue was presented as a part of the Audit
of NARA’s Preservation Program (OIG Report No. 13-08), but the Chief Operating Officer
requested it be separated from the original report to allow the agency to focus on the preservation
and archival facilities issues separately. Therefore, we chose the audit memo format to report the
issue 1.

NARA 1571, Archival Storage Standards (Standards) establishes structural, environmental
control, fire safety, preservation, and security standards for appropriate archival storage
conditions in NARA archival facilities. NARA applies the requirements in the Standards to all
NARA archival facilities, which is above and beyond the intention of the directive. The
directive is only applicable to (1) all new NARA archival facilities occupied by NARA on or
after October 1, 2001 and (2) existing NARA archival facilities when they are renovated or
otherwise significantly modified to the extent feasible and financially practicable.




1
 An audit memorandum is used when an audit is performed and there are either no findings or minimal findings
identified.
During this audit we examined the Standards, met with representatives from the Preservation
Programs Division (RX), and reviewed data from the Performance Measurement and Reporting
System (PMRS). Based on our review some archival facilities (including facilities occupied
prior to October 1, 2001) may not be in compliance with the Standards. NARA's failure to
comply with the Standards could lead to premature deterioration of records due to inadequate
record storage environments. Our finding is presented in detail in Appendix A.

This audit was conducted in accordance with generally accepted government auditing standards
between March 2012 and January 2013. These standards require we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

As with all OIG products, we will determine what information is publically posted on our
website from this Memorandum. Should you or management have any redaction suggestions
based on FOIA exemptions, please submit them to my counsel within one week from the date of
this letter. Should we receive no response from you or management by this timeframe, we will
interpret that as confirmation NARA does not desire any redactions to the posted report.

Should you have any questions concerning this report, or require additional information, please
contact me at (301) 837-3000.


~~
James Springs                  ,

Acting Inspector General 





                                               2

Appendix A – Audit Results


Some Archival Facilities may not be in compliance with Archival Storage Standards

Based on our review of PMRS and interviews with RX, a number of archival facilities holding
archival records may not meet archival storage standards 2. This condition exists because NARA
1571 compliance reviews of each of the facilities have not been completed by RX. The
Standards establish environmental conditions to help achieve the maximum life expectancy of
textual records stored in the regional archives system. It also establishes structural,
environmental control, fire safety, preservation, and security standards for appropriate archival
storage conditions in NARA archival facilities. NARA’s failure to comply with the Standards
could lead to premature deterioration of records due to inadequate record storage environments.

NARA’s FY 2004 Performance and Accountability Report stated by 2009, 100% of NARA’s
archival holdings would be in appropriate space. At the end of FY 2009, only 70% of archival
holdings were in appropriate space. Although 30% of archival holdings were still not in
appropriate space, the FY 2011 PAR, stated by 2016 100% of archival holdings would be stored
in appropriate space.

During this audit we inquired with the Director of RX about which archival facilities were not
compliant with the Standards. We were directed to the percentage of archival holdings stored in
appropriate space target metric within PMRS. This target metric is a measure of the quality of
NARA’s archival records space. According to PMRS, at the end of FY 2012, 94% of traditional
holdings and 40% of artifact holdings were in NARA 1571, Archival Storage Standards
appropriate space. The archival facilities not compliant with the Standards according to PMRS
were:




2
 In the 2005 audit report, Evaluation of NARA’s Preservation Program (OIG Audit Report 05-13), we noted a
number of archival facilities holding archival records did not meet archival storage standards.
                                                      3

Table 1: Non-compliant archival facilities
      Archival Facility                 Artifacts                Traditional Holdings
Eisenhower Library                         X
Roosevelt Library                          X                              X
Ford Library                               X                              X
George W. Bush Library                     X                              X
Truman Library                             X                              X
Hoover Library                             X                              X
Carter Library                             X
Johnson Library                            X                              X
Reagan Library                             X
St. Louis                                                                 X
Denver                                                                    X
Philadelphia                                                              X
San Bruno                                                                 X

According to the Director of RX, Business Support Services and RX are visiting each archival
facility using a checklist that addresses each element of the Standards. As a part of the visits,
non-compliant areas will be identified along with mitigating strategies that have been
implemented by some facilities. Until these visits are completed, the Director was not sure about
the accuracy of the list of non-compliant archival facilities, but stated there may be some
adjustments to the current metric numbers based on the visits. The Director did not provide a
timeframe for when the visits or checklists would be completed or when the archival facilities
would be in compliance.

In March 2013 the Director of RX provided an update on the NARA 1571 reviews (See
Appendices B and C for spreadsheets provided by RX outlining Regional archival facilities and
Presidential Libraries compliance with the Standards). Based on our review of the spreadsheets,
many of the archival facilities are not in compliance with the Standards. Although the Director
of RX indicated many archival facilities had elements of the Standards that were in process of
being reviewed or in the process of being made compliant, she could not state as to whether the
facilities were compliant. Additionally, the Director could not confirm whether the data reported
for the target metric is accurate. As stated previously this metric reports 94% of traditional
holdings and 40% of artifacts are stored in compliant space, which is contradictory to the
information in presented to the OIG (Appendix B and C). Until all archival facilities can
comply, records maintained at the facilities are at risk for premature deterioration because of
inadequate records storage environments and harmful contaminants.




                                                4

Recommendation

The Chief Operating Officer should ensure:

   a)	 A comprehensive review of the Standards is completed. Additionally, roles and
       responsibilities for offices involved in the execution of the directive are clearly defined.
   b)	 A plan is developed, including a timeline, for when the archival storage facility reviews
       will be completed. As a part of the reviews, identify facilities with (1) areas of non­
       compliance, associated costs, risk if the actions are not completed, and an action plan, (2)
       structural, environmental control, fire safety, preservation, and security deficiencies that
       could be severe enough to permanently damage records.
   c)	 An accurate listing of facilities currently non-compliant with the Standards, along with
       the area of deficiencies is identified and communicated.
   d)	 Resources needed to make all archival storage facilities compliant by 2016 are identified.
       If the facility cannot be brought into conformance with the Standards, determine and
       document what mitigating actions have been or will be taken to minimize threats to the
       holdings.
   e)	 PMRS is updated to accurately reflect percentage of archival holdings in appropriate
       space.


Management Response

Management concurred with the recommendation.




                                                5

Appendix B –Presidential Libraries NARA 1571 Compliance (as of March 2013)3


         Compliant                         Non-Compliant               Project or Review in progress/Near Compliant

      Facility              Location             Ownership /   BCR    Structural     Water        HVAC          Environmental    Finishes    Lighting     Fire      Facility    Other
                                                   Date        Date   Standards     Damage        Design          Conditions        and      1571.16:    Safety    Operation   1571.24:
                                                                      1571.6: B    1571.7: B    1571.8 and          1571.9       Materials     RX         and           &        LP
                                                                                    and RX      1571.11: B      (T&RH) & .11     1571.12 ­              Security    Surveys
                                                                                                 and RX          (pollutants):    .15: RX               1571.18     1571.22­
                                                                                                                      RX                                – 21: B      .23: B,
                                                                                                                                                                    RX, LP
 Hoover                  West Branch           NARA facility   2013       B           No               No             No           N/A       Review        B           Yes       Yes
 Roosevelt               Hyde Park             NARA facility   2005      Yes          Yes             Yes            Yes           Yes         Yes         B         Yes         Yes
 Truman                  Independence          NARA facility   2010       B           No            Review            No           Yes         Yes        Yes        Yes         Yes
 Eisenhower              Abilene               NARA Library    2011       B         Review          Review           Yes           Yes       Review        B         Yes         Yes
                                               NARA Museum     2011       B         Review          Review            No           Yes       Review        B         Yes         Yes
                                               NARA Boyhood    2011   Historic      Review          Historic       Historic        N/A         No          B         Yes         Yes
                                               Home                   Structure                     Structure      Structure
 Kennedy                 Boston                NARA facility   2005      Yes          Yes             Yes            Yes           Yes         Yes         B         Yes         Yes
                                                                                   Mitigation
                                               FAE facility    n/a       n/a          n/a              n/a            n/a           n/a        n/a        n/a         n/a        n/a
 Johnson                 Austin                NARA facility   2009      Yes          No               No             No           N/A         No          B         Yes         Yes
 Nixon                   Yorba Linda           NARA facility   2007      Yes          Yes             Yes            Yes           Yes         Yes        Yes        Yes         Yes
                                                                                   Mitigation
 Ford Library            Ann Arbor             NARA facility   2012       B         Review          Review           Yes           Yes       UV film       B         Yes         Yes
 Ford Museum             Grand Rapids          NARA facility   2012       B           Yes             Yes            Yes           Yes         Yes         B         Yes         Yes




3 Provided by Preservation Programs Division

                                                                                                6
    Facility     Location      Ownership /   BCR    Structural     Water       HVAC        Environmental    Finishes    Lighting     Fire     FacilityO    Other
                                 Date        Date   Standards     Damage       Design        Conditions        and      1571.16:    Safety    peration    1571.24:
                                                    1571.6: B    1571.7: B   1571.8 and        1571.9       Materials     RX         and          &         LP
                                                                  and RX     1571.11: B    (T&RH) & .11     1571.12 ­              Security   Surveys
                                                                              and RX        (pollutants):    .15: RX               1571.18    1571.22­
                                                                                                 RX                                – 21: B     .23: B,
                                                                                                                                               RX, LP
Carter         Atlanta       NARA facility   2008       B         Review          Review      Review          Yes         Yes         B          Yes        Yes
Reagan         Simi Valley   NARA facility   2007       B         Review           No           No            N/A         Yes         B         Yes         Yes
George W.H.    College       NARA facility   2008      Yes        Review           No      T and RH No;       N/A         Yes         B         Yes         Yes
Bush           Station                                                                     pollutants Yes
Clinton        Little Rock   NARA facility   2009      Yes         Yes             Yes          Yes           Yes         Yes        Yes        Yes         Yes
George W.      Dallas, TX    NARA facility   n/a       Yes         Yes             Yes          Yes           Yes         Yes        Yes        Yes         Yes
Bush




                                                                             7

Appendix C – Regional Facilities NARA 1571 Compliance (as of March 2013)4


         Compliant                         Non-Compliant               Project or Review in progress/Near Compliant

Facility     Location           Ownership      BCR    Structural   Water      HVAC         Environmental   Environ.        Finishes    Lighting     Fire        Facility   Other
                                               Date   Standards    Damage     Design       Conditions      Conditions      &           1571.16:     Safety &    Oper. &    1571.24:
                                                      1571.6: B    1571.7:    1571.8 and   1571.9          1571.11         Materials   RX           Security    Surveys:   R, RX
                                                                   B & RX     1571.11:     (T&RH): RX      (pollutants):   1571.12 ­                1571.18 –   1571.22­
                                                                              B & RX                       RX              .15: RX                  21: B       23:
                                                                                                                                                                B & RX
RE-BO        Waltham            GSA            n/a        B        Review     Review in        Yes            Review          n/a        Yes           B            N/A      Yes
             MA                                                       in       progress                       planned
                                                                   progress
RE-NY        Custom             GSA            n/a        B         Project   Project in    No data-new     No data- new     Yes         Yes           B           N/A       Yes
             House, NY,                                               in      progress       building         building
             NY                                                    progress

RE-PA        Market St,         GSA            n/a        B         Project   Project in    No data-new     No data- new     Yes       Project in      B           N/A     Review
             Philadelphia,                                            in      progress       building         building                 progress                               in
             PA                                                    progress                                                                                                progress

RE-PA        Townsend           Commercial     n/a        B         Project   Project in    No data-new     No data- new     Yes       Project in      B           N/A
             Rd,                lease (GSA)                           in      progress       building         building                 progress
             Philadelphia,                                         progress
             PA

RE-AT        Atlanta/           NARA           tba        B        Review     Review in       Review         Review in       Yes         Yes           B           Yes       Yes
             Morrow GA                                                in       progress                       progress
                                                                   progress




4 Provided by Preservation Programs Division

                                                                                               8
Facility   Location      Ownership     BCR    Structural   Water      HVAC          Environmental   Environ.        Finishes    Lighting     Fire        Facility   Other
                                       Date   Standards    Damage     Design        Conditions      Conditions      &           1571.16:     Safety &    Oper. &    1571.24:
                                              1571.6: B    1571.7:    1571.8 and    1571.9          1571.11         Materials   RX           Security    Surveys:   R, RX
                                                           B & RX     1571.11:      (T&RH): RX      (pollutants):   1571.12 ­                1571.18 –   1571.22­
                                                                      B & RX                        RX              .15: RX                  21: B       23:
                                                                                                                                                         B & RX
 RM­       Chicago IL    GSA           n/a        B        Projects   Projects in        No            Review          n/a      Project in      B            N/A      Yes
 CH                                                           in       progress                        planned                  progress
                                                           progress
 RM­       Union         Commercial    n/a        B        Review     Review in         Yes           Review in       Yes         Yes           B           N/A       Yes
 KC        Station       lease (GSA)                          in       progress                        progress
           Kansas City                                     progress
           KS
AFO-­      Lenexa KS     Commercial    n/a        B        Review     Review in         Yes            Review          n/a        Yes           B           N/A     Review
 LS                      lease (GSA)                          in       progress                        planned                                                         in
                                                           progress                                                                                                 progress
 AFO­      Lee’s         Commercial    n/a        B        Review     Review in          No               No           n/a        Yes           B           N/A     Review
  LX       Summit,       lease (GSA)                          in       progress                                                                                     planned
           MO                                              progress
 RM­       Broomfield,   Commercial    n/a        B        Review     Review in      No data-new     No data- new     Yes       Review in       B           N/A     Review
 DV        Denver CO     lease (GSA)                          in       progress       building         building                  progress                              in
                                                           progress                                                                                                 progress
 RM­       John          Commercial    n/a        B        Review     Review in         Yes              Yes          Yes         Yes           B           N/A       Yes
 FW        Burgess,      lease                                in       progress
           Ft Worth TX   (NARA)                            progress
 RW­       Anchorage     GSA           n/a        B        Review     Review in          No            Review          n/a        Yes           B           N/A       Yes
 AN        AK                                                 in       progress                        planned
                                                           progress
RW-SE      Seattle WA    GSA           n/a        B        Review     Review in         Yes            Review          n/a        Yes           B           N/A       Yes
                                                              in       progress                        planned
                                                           progress
RW-SB      San Bruno     GSA           n/a        B        Review     Projects in        No            Review          n/a       Review         B           N/A     Review
           CA                                                 in       progress                        planned                                                      planned
                                                           progress
RW-RS      Perris CA     Commercial    n/a       Yes         Yes         Yes            Yes            Review         Yes         Yes          Yes          N/A       Yes
                         lease                                                                         planned
                         (NARA)

                                                                                        9

